BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
, United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of the States of Arizona, Missouri, and
21 Other States as Amici Curiae in Support of
Petitioners in 20-843 , New York State Rifle & Pistol
Association, Inc., et al. v. Keith M. Corlett, in His
Official Capacity as Superintendent of New York State
Police, et al. was sent via Next Day Service to the U.S.
Supreme Court, and Next Day and e-mail Service to
the following parties listed below, this 22nd day of
January, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
Barbara. underwood@ag .ny. gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

I Suite 102

Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

D. John Sauer
Solicitor General
Counsel of Record
Office of the Missouri Attorney General
Supreme Court Building
P.O. Box 899
Jefferson City, MO 65102
(573) 751-3321
John.Sauer@ago.mo.gov
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 22, 2021.

DonnaJ. Wo
~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

'-J

[seal]

JOHN D. GALLA3r!~R
Notary Public, State of Ohio
My Commission Expires
Febnmry 1t, ?023

